No. 19-169

Sn The
Supreme Court of the United States
4
JANE DOE,

 

 

Petitioner,

IOWA,

Respondent.
+
On Petition for a Writ of Certiorari
to the Iowa Supreme Court
+

CERTIFICATE OF COMPLIANCE
+
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS CURIAE
COMMUNITY LEGAL SERVICES INC. IN SUPPORT OF PETITIONER JANE DOE contains 5,385
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct.

 

 

Executed on September 3, 2019.

/ je Gullen
Counsel of Record for Amicus Curiae
Community Legal Services, Inc.
1424 Chestnut St.
Philadelphia, PA 19102
215-981-3787
